<html>
<title> - NOMINATION OF CARYN A. WAGNER TO BE UNDER SECRETARY OF HOMELAND SECURITY FOR INTELLIGENCE AND ANALYSIS AND NOMINATION OF PHILIP S. GOLDBERG TO BE ASSISTANT SECRETARY OF STATE FOR INTELLIGENCE AND RESEARCH</title>
<body><pre>[Senate Hearing 111-556]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-556
 
                     NOMINATION OF CARYN A. WAGNER
                   TO BE UNDER SECRETARY OF HOMELAND
                 SECURITY FOR INTELLIGENCE AND ANALYSIS
                  AND NOMINATION OF PHILIP S. GOLDBERG
                   TO BE ASSISTANT SECRETARY OF STATE
                     FOR INTELLIGENCE AND RESEARCH

=======================================================================


                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 1, 2009

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                  U.S. GOVERNMENT PRINTING OFFICE
56-433                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
              CHRISTOPHER S. BOND, Missouri, Vice Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
    Virginia                         OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   RICHARD BURR, North Carolina
BARBARA A. MIKULSKI, Maryland        TOM COBURN, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       JAMES E. RISCH, Idaho
BILL NELSON, Florida
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk
                                CONTENTS

                              ----------                              

                            DECEMBER 1, 2009

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     3

                               WITNESSES

Wagner, Caryn A., Under Secretary of Homeland Security for 
  Intelligence and Analysis-Designate............................     4
Goldberg, Philip S., Assistant Secretary of State for 
  Intelligence and Research-Designate............................     6
    Prepared statement...........................................     8

                         SUPPLEMENTAL MATERIAL

Questionnaire for Completion by Presidential Nominees for Caryn 
  A. Wagner......................................................    20
Prehearing Questions for the Record and Responses of Ms. Wagner..    33
Questions for the Record and Responses of Ms. Wagner.............    53
Letter from Robert I. Cusick, Office of Government Ethics, Dated 
  November 17, 2009, Transmitting Public Financial Disclosure 
  Report for Ms. Wagner..........................................    59
Questionnaire for Completion by Presidential Nominees for Philip 
  S. Goldberg....................................................    69
Prehearing Questions for the Record and Responses of Mr. Goldberg    90
Questions for the Record and Responses of Mr. Goldberg...........   105
Letter from Robert I. Cusick, Office of Government Ethics, Dated 
  November 2, 2009, Transmitting Public Financial Disclosure 
  Report for Mr. Goldberg........................................   110


                     NOMINATION OF CARYN A. WAGNER



                   TO BE UNDER SECRETARY OF HOMELAND



                     SECURITY FOR INTELLIGENCE AND



                       ANALYSIS AND NOMINATION OF



                        PHILIP S. GOLDBERG TO BE



                      ASSISTANT SECRETARY OF STATE



                     FOR INTELLIGENCE AND RESEARCH

                              ----------                              


                       TUESDAY, DECEMBER 1, 2009

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m., in 
Room SH-216, Hart Senate Office Building, the Honorable Dianne 
Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Wyden, 
Feingold, Whitehouse, Bond, and Risch.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The meeting will come to order.
    The committee meets today to consider two nominations to 
the intelligence community in positions that require Senate 
confirmation. They are Ambassador Philip Goldberg, nominated to 
be the Assistant Secretary of State for the Bureau of 
Intelligence and Research, which we fondly know as INR, and Ms. 
Caryn Wagner, nominated to be Under Secretary of Homeland 
Security for Intelligence and Analysis, or I&A.
    I'd like to welcome both of you and say congratulations.
    Both individuals were nominated by President Obama on 
October 26th. They have since met with me and other members of 
the committee and have responded to numerous prehearing 
questions. Their responses are now posted on the Intelligence 
Committee's website for public view.
    Interestingly enough, both nominees come from different 
backgrounds and are nominated to lead two very different 
intelligence organizations.
    Ambassador Goldberg is nominated to lead an organization 
with a very distinguished and respected history. The State 
Department Bureau of Intelligence & Research conducts all-
source intelligence analysis to advise the Secretary of State 
and other senior department officials and serves as an active 
participant in intelligence community-wide analytic products. 
Its analysts, while far fewer in number than the all-source 
analysis organizations at the CIA and DIA, are highly expert in 
their fields and have no qualms about vocally dissenting from 
judgments they believe to be incorrect or unsubstantiated, and 
that's very much appreciated.
    One example of importance to me was INR's view in the 2002 
NIE on Iraq that Iraq was not reconstituting nuclear weapons, 
especially due to INR's different view on the use of aluminum 
tubes in centrifuges. That obviously proved to be correct.
    Ambassador Goldberg himself has been long involved in 
national security issues and has received intelligence 
throughout his career but has no past experience inside the 
intelligence community. We will be very interested in hearing 
Ambassador Goldberg's views on his preparations to assume the 
responsibility.
    Ambassador Goldberg is a career Foreign Service officer. He 
has distinguished himself over a 20-year period, including 
Charge d'affaires and Deputy Chief of mission in Santiago, 
Chile, Chief of Mission in Pristina, Kosovo, and United States 
Ambassador to Bolivia. Since June he has served as the 
coordinator for the implementation of United Nations 
resolutions on North Korea. Earlier in his career he served in 
Bogota, Colombia, and Pretoria, South Africa. Of particular 
note is his being declared persona non grata by Bolivian 
President Evo Morales in September of 2008. The committee has 
looked at this incident, and members may have a few questions, 
but it's pretty clear to me that Ambassador Goldberg had no 
blame in this matter.
    Ms. Wagner, by contrast, is a career intelligence 
professional, beginning as an Army SIGINT officer and rising to 
the level of captain. After three years on the House 
Intelligence Committee, Ms. Wagner joined the senior ranks of 
the DIA before becoming Director of the Intelligence Community 
Management staff, and subsequently the Assistant Deputy DNI and 
chief financial officer. She returned to the House Intelligence 
Committee as budget director and is now a faculty member of the 
Intelligence and Security Academy, LLC.
    She is being nominated to head the Office of Intelligence & 
Analysis at the Department of Homeland Security, which, unlike 
INR, is a young intelligence organization and one that has 
struggled to identify a clear mission and bring together an 
appropriate workforce. We have discussed that earlier.
    The committee's report accompanying the FY 2010 
intelligence authorization bill noted some of these concerns. 
They include that, as of this summer, contract personnel make 
up a staggering 63 percent of the workforce of the Office of 
Intelligence & Analysis, including a large percentage of its 
intelligence analysts. In my view, this is an inherently 
governmental function and should be done by the government, not 
by contractors.
    The office has written analysis that inappropriately 
analyzed legitimate activities of U.S. persons based in part on 
highly questionable and non-credible open-source information. 
In addition, the office has numerous and unclear missions, some 
of which overlap with work being done by other departments. 
According to the Homeland Security Institute, the office is 
unstable and lacks structures for budget and management 
accountability. I discussed that this morning with Mrs. Wagner, 
and I actually believe she's up to it. So we'll see what comes.
    I'm told that the Office of Intelligence & Analysis has 
been drafting a plan to restructure and refine its mission, but 
the plan won't be finalized until a new Under Secretary is 
confirmed. So that will be clearly, Ms. Wagner, your first big 
job. I think this committee will be very interested in your 
views as a professional on what the office should be doing and 
how it should be structured or restructured.
    Again, I welcome both witnesses, and I will turn to the 
Vice Chairman for any opening comments he might have.
    Vice Chairman Bond. Thank you very much, Madam Chair. 
You've laid down a tough gauntlet. We welcome both of the 
nominees and ask, do you have family members here or close 
friends who are supporting you today? Ms. Wagner?
    Ms. Wagner. Yes. Thank you, Senator Bond. My husband, Chad 
Lash, is here with me. And I have numerous friends which I 
won't name, because I will no doubt forget one. But I thank 
you.
    Vice Chairman Bond. We will recognize your husband. 
Welcome, sir.
    Ambassador.
    Ambassador Goldberg. I have my colleagues from the State 
Department.
    Vice Chairman Bond. Well, thank you very much.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond. While the public of ten hears about 
other elements of the intelligence community, the office each 
of you is nominated to head, INR at State and Intelligence & 
Analysis at the Department of Homeland Security, can and should 
be making valuable contributions to the community and to our 
national security.
    As the Chairman said, I also have had conversations with 
you and pointed out some things where we think you can enhance 
and improve the operations of intelligence.
    Now, Ambassador Goldberg, the Chair stole one of my best 
lines, but I wanted to say that few people in history can claim 
the honor of being expelled by the likes of Evo Morales. So 
it's clear that you've already chalked up a major 
accomplishment, at least in my book, and I congratulate you on 
that. I'm interested to hear how you expect your experiences in 
Bolivia and other diplomatic posts will help you head an 
analytic shop.
    Ms. Wagner, a few months ago at a reception I had the 
pleasure of sitting next to a former MI-5 official who shared 
some insights on the importance in this war on terror of 
forging solid and productive relationships among federal, state 
and local law enforcement agencies. His point to me was that 
what the Brits do and we do not do is use the contacts we have, 
the continuing contacts we have with state and local officials, 
to task them to bring information up the chain of command. We 
send information down, but a local police department or a local 
sheriff's office is far more likely to know when or hear when 
something amiss is going on in their community and report that 
back up the chain.
    So we've talked about that. And I think that while it's 
very important--and I hear complaints that not enough 
intelligence is being pushed downstream--there may not be 
enough intelligence coming upstream from thousands of 
communities. And we hope that you will pursue that.
    We can make fusion centers work, but there's a lot of 
intelligence, I believe, that can be best gathered at the local 
level. On the federal level, we need to make a firmer 
commitment to training these local authorities to identify and 
collect the intelligence.
    Now, Ms. Wagner, if you're confirmed, I expect you'll work 
closely with Director Mueller and the Attorney General in the 
coming months to make better training programs a reality. They 
can be done without a lot of additional cost, but the benefits 
will more than compensate for any price they cost.
    Madam Chair, I'm sure that both of these nominees are 
anxiously awaiting our questions, and even more importantly, 
their exit strategy from Hart 216. So with that, I congratulate 
them on their nominations and look forward to hearing from them 
today.
    Chairman Feinstein. Thank you very much, Senator.
    Ms. Wagner, why don't we begin with you, if that's all 
right?

         STATEMENT OF CARYN A. WAGNER, UNDER SECRETARY

             OF HOMELAND SECURITY FOR INTELLIGENCE

                     AND ANALYSIS-DESIGNATE

    Ms. Wagner. Thank you very much, Senator Feinstein, Senator 
Bond. I'm honored to appear before you today as the nominee for 
Under Secretary for Intelligence & Analysis at the Department 
of Homeland Security. I believe this position occupies a unique 
mission space between the national intelligence and law 
enforcement communities and the state, local, tribal and 
private sector entities that are the front lines of homeland 
security. There's nothing more important than forging and 
fostering those connections.
    If confirmed, I believe I have the right skills to continue 
building on the foundation laid by Pat Hughes, Charlie Allen 
and the current acting Under Secretary, Bart Johnson.
    I began my intelligence career as a signals intelligence 
officer in the United States Army, serving eight years on 
active duty. In the years since, I have spent seven and a half 
years at DIA, five years on the staff at the House Permanent 
Select Committee on Intelligence, three years in the private 
sector and three years with the ODNI.
    I've had a mixture of staff and line management jobs, 
including leading a 2,000-person analytic organization within 
the Defense Intelligence Agency. I've also had a great deal of 
experience in an interagency environment, and I'm familiar with 
all facets of the intelligence community.
    While my experience with law enforcement has been more 
limited, I have had significant exposure while working at the 
DNI and in Congress to the capabilities and contributions of 
national law enforcement and homeland security agencies.
    I know I have much to learn about state, local and tribal 
law enforcement, which is why, if confirmed, I'm eager to get 
started with the help of Principal Deputy Under Secretary for 
Intelligence & Analysis Bart Johnson, who's a highly respected 
and decorated veteran of the New York State police force and 
who's done an outstanding job as acting Under Secretary for the 
past six months.
    I've had the opportunity to observe the Office of 
Intelligence & Analysis from the outside while I served in the 
Office of the DNI and on the HPSCI staff, and I am aware of the 
many challenges that the organization faces. Since my 
nomination, I've learned more about I&A's statutory mission, 
its ongoing activities, and the Secretary's vision about where 
she would like to take the department. I've formed some 
preliminary views on what needs to be done to enhance I&A's 
support to its customers and to the department and to improve 
its standing within the intelligence community and with its 
congressional overseers.
    If confirmed, I plan to focus my initial efforts in three 
main areas: First, creating a true Homeland Security 
information-sharing enterprise through greater focus on the 
state and local fusion centers; second, creating a DHS 
intelligence enterprise as the chief intelligence officer for 
the department; and third, putting in place the management 
processes necessary to improve the morale, efficiency and 
professionalism of I&A as an organization.
    The unique niche that DHS I&A occupies is best defined by 
its responsibility to share information with state, local and 
tribal authorities and the private sector on the full range of 
threats to the homeland, often referred to as all threats, all 
hazards. First responders at the state and local level are the 
nation's first line of defense. They are uniquely able to 
identify anomalous or criminal behavior that could have a 
terrorist nexus. It's critical to educate them on terrorist 
indicators as they are identified, to capture information that 
is lawfully obtained while strictly adhering to privacy, civil 
rights and civil liberties regulations, and share it with the 
wider enterprise.
    This is a multi-faceted challenge that requires adapting 
analytic methodologies and product lines, a great deal of 
training at all levels of the enterprise and IT and 
information-sharing solutions to enable two-way information 
flow. It also requires an approach that is tailored to the 
different threat and operational realities of the individual 
fusion centers.
    If confirmed, I intend to develop a comprehensive multi-
year strategic plan for supporting the state and local fusion 
centers that can be used to guide resource and analytic 
planning.
    The role of the Chief Intelligence Officer for the 
Department was created by Secretary Chertoff to empower the 
Under Secretary to create a DHS intelligence enterprise that 
was more than the sum of its parts. DHS' operational components 
have intelligence elements that support their individual 
missions and they also have data and expertise that can be 
leveraged by I&A in support of departmental priorities or 
national, state, local and tribal clients, while strictly 
adhering to privacy, civil rights and civil liberties 
regulations.
    In addition, the components may have intelligence or 
information requirements that are not adequately being met. I&A 
can help to meet these requirements by leveraging the rest of 
the intelligence community on their behalf, producing tailored 
products for or with them, providing analytic training and 
mentoring, and serving as an advocate for increasing their 
capabilities. By leveraging both the components' and I&A 
capabilities, we can build on recent progress to create a true 
intelligence enterprise that enables I&A and the Department to 
achieve their full potential and best serve their customers.
    If confirmed, I will view the role of Chief Intelligence 
Officer for the Department as one of the most important of my 
missions, and put in place a staff structure to manage it.
    Finally, in the management arena, I&A is still a young 
organization, and several recent studies have suggested that it 
suffers from a lack of institutionalized processes and from 
poor morale. If confirmed, one of my biggest priorities will be 
developing and formalizing internal processes for planning, 
programming and budgeting, for performance measurement and 
human capital management, measurement, and most certainly I 
will be taking a hard look at contractors. I believe that 
communicating clear mission guidance, implementing fair and 
transparent processes for hiring, promoting, and rewarding 
people and developing a structured and inclusive process for 
building the budget will go a long way towards improving 
morale.
    If confirmed, I also plan to make training a centerpiece of 
my agenda. I've already mentioned the importance of training to 
building information-sharing and intelligence enterprises, but 
it is equally important for professional development and morale 
within I&A. If confirmed, I will focus on ensuring that I&A 
analysts receive the tradecraft training they need.
    Finally, if confirmed, I will work hard to establish and 
maintain constructive partnerships, particularly with the 
Office of the DNI, the National Counterterrorism Center, the 
FBI and the Congress. If confirmed, I pledge to keep you fully 
informed of I&A's progress and activities.
    Thank you very much.
    Chairman Feinstein. Thank you very much. Mr. Goldberg--
Ambassador I should say.

         STATEMENT OF THE HONORABLE PHILIP S. GOLDBERG,

         ASSISTANT SECRETARY OF STATE FOR INTELLIGENCE

                     AND RESEARCH-DESIGNATE

    Ambassador Goldberg. Madam Chairman and Mr. Vice Chairman, 
it is a great honor to appear before you today as President 
Obama's nominee to be Assistant Secretary of State for the 
Bureau of Intelligence and Research. I am grateful to the 
President and Secretary of State Clinton for their confidence 
in nominating me for this position, as well as to the Director 
of National Intelligence, Dennis Blair, for his support in my 
nomination. If confirmed by the Senate, I pledge to work 
closely with this Committee as it plays a vital role in the 
oversight of the intelligence community.
    Madam Chairman, INR has been a treasured source of 
information and analysis for policymakers for more than 60 
years. INR is also a deeply respected voice within the 
intelligence community. INR's success has not been based on its 
size or budget. Rather, it has been based on the extraordinary 
experience, judgment and analytical skill of its personnel.
    INR's well-earned reputation for insight and 
professionalism is based on a mix of civil and foreign service 
personnel, a combination of those who spend years and often 
decades on an issue, buttressed by those with recent experience 
in our embassies overseas. If confirmed, I will work to enhance 
the ability of these fine professionals to do their jobs 
through training, academic opportunities, and service overseas. 
And I will work to recruit the finest people available.
    I will also defend both the process of independent and 
unbiased analysis as well as the people who produce it. As you 
point out, Madam Chairman, the people of INR have in recent 
times won praise for the quality of their work as well as 
sticking to their analytic conclusions when necessary.
    INR has another essential role: assuring that intelligence 
activities are consistent with, and supportive of, our foreign 
policy and national security objectives. In this area too, INR 
is fortunate to have a staff of professionals who have special 
expertise and years of experience in often very technical 
areas.
    If confirmed, I look forward to working with these 
professionals to support the Secretary and Department in 
assuring that foreign policy concerns are a central 
consideration in intelligence community decisions and 
activities. I will also work with the relevant committees of 
Congress as they carry out their essential oversight roles.
    Madam Chairman, I believe that, if confirmed, I would bring 
a set of skills and experience to the job of Assistant 
Secretary for Intelligence and Research that will add to the 
value of the bureau. While I have not previously served in a 
position in the intelligence community, I've had extensive and 
relevant experience in almost all aspects of INR's core 
functions.
    I have worked closely with analysts in the intelligence 
community as a political, economic and biographic officer at 
embassies overseas in helping to produce analytical products. 
In addition, I have myself produced analytic products for 
policymakers, from assignments in embassies as well as in 
Washington. This experience has given me a strong appreciation 
for the independence, intellectual rigor, experience and 
personal integrity that contribute to good analytical products. 
Having worked on policy matters in four geographic bureaus and 
on the seventh floor of the department, I have a strong 
appreciation for how intelligence can best support diplomacy 
and its practitioners. This is INR's primary mission.
    As a Charge d'affaires and two-time chief of mission, I 
have ensured that intelligence and law enforcement activities 
were carried out in support of foreign policy and national 
security objectives. Most recently, I have served as 
Coordinator for Implementation of U.N. Security Council 
Resolutions on North Korea, a job that requires analysis of 
intelligence information and close coordination with other 
intelligence community members. My experience leading large and 
complex missions overseas, as well as managerial assignments at 
the State Department, have prepared me to lead this large 
bureau.
    Madam Chairman, we live in a time of enormous foreign 
policy and national security challenges. On issues of war and 
peace, nonproliferation, climate change, and the economic and 
financial situation around the globe, our leaders need and 
deserve the very best information and analysis before making 
difficult decisions. If confirmed by the Senate, I look forward 
to working with you and your colleagues to make sure that 
happens.
    Thank you.
    [The prepared statement of Ambassador Goldberg follows.]
    Prepared Statement of Philip S. Goldberg, Nominee for Assistant 
            Secretary of State for Intelligence and Research
    Madam Chairman and Members of the Committee, it is a great honor to 
appear before you today as President Obama's nominee to be Assistant 
Secretary of State for the Bureau of Intelligence and Research (INR). I 
am grateful to the President and Secretary of State Clinton for their 
confidence in nominating me for this position, as well as to the 
Director of National Intelligence, Dennis Blair, for his support of my 
nomination. If confirmed by the Senate, I pledge to work closely with 
this Committee as it plays a vital role in dealing with the many 
difficult and complex issues that confront the United States around the 
world.
    Madam Chairman, INR has been a treasured source of information and 
analysis for policymakers for more than 60 years. INR is also a deeply 
respected voice within the Intelligence Community. INR's success has 
not been based on its size or budget. Rather, it has been based on the 
extraordinary experience, judgment and analytical skill of its 
personnel. The Bureau's personnel define expertise--an average of 10 
years on account among all analysts, a third of the analytical body 
with PhDs in their areas, and most analysts with command of the 
language or languages relevant to their portfolios. INR's well-earned 
reputation for insight and professionalism is based on a mix of Civil 
and Foreign Service personnel--a combination of those who spend years 
and often decades on an issue, buttressed by those with recent 
experience in the field. If confirmed, I will work to enhance the 
ability of these fine professionals to do their jobs through training, 
academic opportunities, and service overseas. I will work to recruit 
the finest people available. I will work to defend both the process of 
independent and unbiased analysis as well as the people who produce it. 
If confirmed, I would be proud to lead a group of people who have in 
recent times won praise for both the quality of its work as well as its 
willingness to stick to its analytic conclusions when necessary.
    INR has another essential role: assuring that intelligence 
activities are consistent with, and supportive of, our foreign policy 
and national security objectives. In this area too, INR is fortunate to 
have a staff of professionals who have special expertise and years of 
experience in often very technical areas. If confirmed, I look forward 
to working with these professionals to support the Secretary and 
Department in assuring that foreign policy concerns are a central 
consideration in Intelligence Community decisions and activities. I 
will also work with the relevant committees of Congress as they carry 
out their essential oversight roles.
    Madam Chairman, I believe that, if confirmed, I would bring a set 
of skills and experience to the job of Assistant Secretary for 
Intelligence and Research that will add to the value of the bureau. 
While I have not previously served in a position in the Intelligence 
Community, I have had extensive and relevant experience in almost all 
aspects of INR's core functions. As a political, economic and 
biographic officer at embassies overseas, I have worked closely with 
analysts in the Intelligence Community to produce analytical products. 
In addition, I have myself produced analytic reports for policymakers, 
from assignments in embassies overseas as well as in Washington. This 
experience has given me a strong appreciation for the independence, 
intellectual rigor, experience and personal integrity that contribute 
to good analytical products. Having worked on policy matters in four 
geographic bureaus and on the seventh floor of the department, I have a 
strong appreciation for how intelligence can best support diplomacy and 
its practitioners. This is INR's primary mission.
    As a Charge d'affaires and two-time chief of mission, I have 
ensured that intelligence and law enforcement activities were carried 
out in support of foreign policy and national security objectives. Most 
recently, I have served as Coordinator for Implementation of United 
Nations Security Council Resolutions on North Korea, a job that 
requires analysis of intelligence information and close coordination 
with other IC members. My experience leading large and complex missions 
overseas, as well as managerial assignments at the State Department, 
have prepared me to lead this large bureau.
    Madam Chairman, we live in a time of enormous foreign policy and 
national security challenges. On issues of war and peace, non-
proliferation, climate change, and the economic and financial situation 
around the globe, our leaders need and deserve the very best 
information and analysis before making difficult decisions. If 
confirmed by the Senate, I look forward to working with you and your 
colleagues to make sure that happens.
    Thank you.

    Chairman Feinstein. Thank you. Thank you both very, very 
much.
    I have a list of four questions that we ask all nominees, 
if you would just respond yes or no to each of them. The first 
is do you agree to appear before the Committee here or in other 
venues when invited?
    Ambassador Goldberg. Yes.
    Ms. Wagner. Yes.
    Chairman Feinstein. I often wonder what we would do if 
someone said no. Okay.
    Vice Chairman Bond. We would confirm them.
    Chairman Feinstein. Yes.
    Vice Chairman Bond. I gather Ms. Wagner nodded yes.
    Chairman Feinstein. She said yes.
    Vice Chairman Bond. I didn't hear her up here.
    Chairman Feinstein. I heard her. Do you agree to send 
officials from your respective organizations to appear before 
the committee and designated staff when requested?
    Ms. Wagner. Yes.
    Ambassador Goldberg. Yes.
    Chairman Feinstein. Do you agree to provide documents and 
any other material requested by the committee in order for it 
to carry out its oversight and legislative responsibilities?
    Ms. Wagner. To the best of my ability yes.
    Ambassador Goldberg. The same, to the best of my ability 
yes.
    Chairman Feinstein. What does that mean?
    Ambassador Goldberg. As far as the INR bureau goes and as 
far as I'm concerned, I will share whatever we can. There are 
some issues that from time to time might come up about document 
executive privilege and the rest that might be beyond my 
control to share.
    Chairman Feinstein. Well, let me just say this is the first 
time anybody has qualified their answer, and that's going to 
have to be looked into more deeply because this committee 
expects to get documents it requests. We are the oversight 
committee and to have intelligence agencies without the ability 
to conduct oversight is not acceptable to us.
    Ambassador Goldberg. No, I----
    Vice Chairman Bond. Madam Chair, I might add that the 
President has a right to declare things at higher security 
levels and we would, before we would accept that, we would need 
to know from the White House that this was something over which 
they're exercising their national security authority.
    Chairman Feinstein. Well, that's right, Mr. Vice Chairman.
    Vice Chairman Bond. And we would carry our argument down to 
1600.
    Chairman Feinstein. That's right. And executive privilege 
can't be a drift net to pick up everything that people don't 
want to have oversight about. And that's where we become the 
guardian angel, so to speak.
    Ambassador Goldberg [continuing]. Absolutely.
    Chairman Feinstein. Just so you understand that.
    Ambassador Goldberg. Madam Chairman, I didn't at all mean 
to say otherwise. We, from our point of view and from my point 
of view, would share all information requested by the 
committee. That was the qualification and it really isn't a 
qualification; it's something that would be beyond my control.
    Chairman Feinstein. Well, I just want everybody to know if 
the committee were to ask for it, we expect to get it unless 
there's not a good reason----
    Ambassador Goldberg. I understand.
    Chairman Feinstein [continuing]. Or you're going to have to 
tangle with us and you don't want to do that.
    Ambassador Goldberg. No.
    Chairman Feinstein. Okay. Last question. Will you ensure 
that your respective offices provide such material to the 
committee when requested?
    Ambassador Goldberg. Yes.
    Ms. Wagner. Yes.
    Chairman Feinstein. Okay. Let me ask each one of you one 
question and then I'll move on. Ms. Wagner, in testimony before 
the Homeland Security and Governmental Affairs Committee on 
September 30 of this year, DHS Secretary Napolitano noted that 
I&A is ``currently undergoing an important realignment to 
strengthen the delivery of useful, actionable intelligence to 
state and local law enforcement based on their particular 
needs.'' Here's the question. Have you been briefed on this 
realignment and do you support it?
    Ms. Wagner. Yes, Madam Chairman, I have been briefed.
    And the realignment is still ongoing. It has not been 
finalized, but Bart Johnson did brief me on what he is 
proposing to do at the top level. I think it makes sense, but I 
would like to reserve the right, if confirmed, to be able to 
make adjustments to that, and so I would prefer to come up and 
brief you after I'm confirmed, if I'm confirmed, on where that 
is.
    Chairman Feinstein. Well, if I understand you correctly, 
you're saying that you will have some input into the 
realignment.
    Ms. Wagner. Yes, Madam Chairman.
    Chairman Feinstein. And therefore it is not finalized and 
that you would----
    Ms. Wagner. It is not finalized.
    Chairman Feinstein [continuing]. Well, we will take you at 
your word because I think it's fair to say that there's some 
weaknesses in your area and we'd like to see them corrected, so 
the correction that you can bring about could be very important 
and we'd like to have you discuss that with us, if that's 
agreeable with you.
    Ms. Wagner. Yes, Madam Chairman.
    Chairman Feinstein. Thank you very much.
    Let me move to Mr. Goldberg. We talked this morning about 
the fact that you have not previously worked in an intelligence 
agency or produced intelligence analysis. Now, you do have 
significant experience in a lot of different areas--in 
receiving it in particular. And so, in my view at least, you're 
clearly qualified for this work. But can you give the committee 
some specific examples from your background of when you have 
provided judgments that run counter to policy preferences?
    Ambassador Goldberg. I think the kinds of policy analysis 
and just plain analytical work that I've done, particularly on 
the Balkans in the 1990s, oftentimes was in a difficult 
atmosphere. When we were debating within the United States 
government about whether to intervene first in Bosnia, later in 
Kosovo, and those kinds of issues were ones that I was 
fortunate enough to be able to weigh in on and give my 
unvarnished view on, I think in part because of the people I 
worked for, but also because I felt that it was important to do 
so.
    Chairman Feinstein. Thank you. I'm not going to ask you 
what your views were, but I think it's very important. One of 
the things that we want to see are really independent 
intelligence agencies that give policymakers the unvarnished 
truth as they see it and are not swayed by what they perceive 
an administration or anybody else for that matter might want.
    Ambassador Goldberg. Absolutely. I agree.
    Chairman Feinstein. Thank you.
    Mr. Vice Chairman.
    Vice Chairman Bond. Thank you, Madam Chair.
    Following up, Ms. Wagner, on the questions from the Chair, 
what do you think should be the primary focus of I&A--
operational support of its components and fusion centers, 
disseminating finished intelligence products and unclassified 
information, or some other thing? And what would be your 
priorities?
    Ms. Wagner. Senator Bond, I think that the primary mission 
of I&A is spelled out in the legislation. What Congress expects 
of it is to share information with the state, local, tribal, 
and private sector entities. And I&A, as far as I can tell, is 
the only element of the intelligence community that views those 
people as its primary customer set. It also, as a departmental 
intelligence element, has the responsibility to support the 
other elements of the department and to sort of orchestrate the 
intelligence symphony, if you will, of the intelligence 
elements within the various components.
    So I think those two things are key, but it also goes back 
to what you had said in your opening comments, that sharing 
flows both ways. We need to make sure that they're the clients, 
but we also need to be aware that they have a wealth of 
information that needs to be synthesized and analyzed and 
shared with the larger intelligence community to support 
national intelligence as well.
    Vice Chairman Bond. Do you think you'd be able to provide 
training for the representatives of the local law enforcement 
agencies so they will be able to carry back to their forces, to 
their teams, what information, what activities may be useful? 
Do you see that being----
    Ms. Wagner. I do. I think that the department and I&A can 
do a lot by providing training. I know the Secretary wants to 
support analytic excellence at the fusion centers. That's 
certainly an area where I&A can help with training, and the 
department is already helping with developing training on 
ensuring that privacy, civil rights and civil liberties are 
protected. And at the fusion centers there's a great deal that 
can be done, and I think training is a key element.
    Vice Chairman Bond [continuing]. Thank you, Ms. Wagner.
    Ambassador, you said, ``On issues of war and peace, 
nonproliferation, climate change and the economic and financial 
situation around the globe, our leaders need and deserve the 
very best information and analysis before making difficult 
decisions.'' Do you really believe that studying climate change 
is really the best use of our limited intelligence analysis 
resources?
    Ambassador Goldberg. I believe that it is one area. It is 
largely a scientific issue and probably not INR's--necessarily 
its competence to judge. But we are involved in negotiations in 
the climate change area, and policymakers would need 
information and analysis on the positions of others and how 
they would approach these issues. And so it would be more in 
line with our more traditional diplomatic role.
    Vice Chairman Bond. All right. Well, I assume, given recent 
revelations, you might be looking into the process of some of 
the analysis that came out of certain so-called scientific 
institutions. But that may be beyond your scope.
    I mentioned to you that INR has developed a reputation for 
being a dissenting voice in intelligence community products. 
And I think some INR analysts believe this is a positive, but 
I've heard from others that it may be a negative because 
continuing dissent may make those views ignored. What's your 
view about this type of reputation? Is it a problem? What could 
you do to change the perception without impacting INR's 
independence?
    Ambassador Goldberg. I think, Mr. Vice Chairman, that the 
reputation of INR is also for feistiness and independence, 
which is something to be encouraged in the production of 
intelligence analysis.
    I took your statement very much to heart when we had a 
chance to meet, and I went back to look at estimates this year. 
And without going into the details of the estimates, there was 
less than--I think it was three out of 13 that there were 
either--two of them were dissents in part and one was more or 
less a more general dissent. So I don't know that it's a huge 
issue, but certainly I want to encourage our analysts to use 
their best judgment and to put their best thoughts forward. 
That's I think my responsibility.
    Vice Chairman Bond. Finally, one of the responses you made 
to the committee's questions--you said the role of the 
Assistant Secretary is ``to play a key role in assuring that 
diplomatic and foreign policy positions are represented in the 
formulation of intelligence policy and activities.'' Can you 
explain what that means?
    Ambassador Goldberg. It means, Mr. Vice Chairman, that we 
have a responsibility to assure that foreign policy concerns 
are one consideration and that the regional assistant 
secretaries and the Secretary have a voice in that process. I 
would view INR's role as very much that of an honest broker 
because we have a responsibility certainly to the intelligence 
community and we want to make sure that the intelligence flow 
continues. But foreign policy is one consideration, and that is 
a role that is designated to INR and to the State Department, 
so it's one that within the councils of the IC is one of many 
factors that would be taken into consideration.
    Vice Chairman Bond. So policy positions would affect 
intelligence operations?
    Ambassador Goldberg. No, sir. Maybe I didn't express it 
well. It's more of a risk-reward kind of issue, to point out 
the possible downsides, possible damage, the possible 
consequences if something happens so that that's known up front 
before something would occur so that it can be taken into 
account at that time.
    Vice Chairman Bond. Thank you, Mr. Ambassador.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman Feinstein.
    Could I ask each of you, first of all, about cyber security 
issues? It does not appear in either of your statements as a 
matter of concern, and I'm interested in knowing, A--briefly, 
because my time is short--what type of a priority you think it 
is, and, B, whether additional efforts on the part of your 
agency should, you think, be required.
    Ms. Wagner. Thank you, Senator. I'll take that one. I think 
it is obviously a critical issue and it is something that I've 
already looked into in the limited time I've had as a nominee. 
I know there are ongoing analytic efforts as part of the 
Critical Infrastructure Protection Analysis effort at the 
department. I don't know yet whether those are sufficient. I 
would expect, if I'm confirmed, one of the first things that I 
plan to do is to go talk to Phil Reitinger, who is the Deputy 
Under Secretary responsible for cyber, and talk to him about 
how I&A can effectively team with him to make sure he gets the 
analytic support that he needs.
    And I know that as this issue continues to evolve there's 
probably room to sort out exactly who's going to do what. But 
it's an area I expect to focus on. I was the cyber security 
coordinator for the HPSCI before I retired, so I'm very 
familiar with some of those issues.
    Senator Whitehouse. Good. Ambassador Goldberg.
    Ambassador Goldberg. Senator, I agree. It is an absolutely 
critical issue. It's one that INR has taken the lead role in at 
the State Department in organizing us to deal with a critical 
issue. We are still in a bit of a state of flux on some of the 
cyber issues in terms of organization because INR, as the link 
with the intelligence community, has a very large role, but 
some of the issues that may be coming up in the years to come 
will be diplomatic missions, as well, and that's not a 
traditional INR role.
    We are organized to deal with the internal issues for the 
State Department in terms of our cyber issues. I have already 
had a discussion, a brief one, with General Alexander about 
some of the larger issues involved. It's going to be a very 
important foreign policy issue, as well. So we're on it, and we 
need to continue to follow it very closely and we will.
    Senator Whitehouse. On a second point, I think there is a 
strong bipartisan consensus on the part of this committee that 
we are sick to death of leaks out of the Executive Branch of 
government. And not only is it a bipartisan concern of this 
committee, but it's a bipartisan issue. There was leaking like 
a sieve in the Bush administration. It doesn't seem to have 
stopped with the change of administrations. And over and over 
again we are subjected to the unhelpful spectacle of, you know, 
having our staffs cleared out of a room for some hyper-secure 
briefing that we then read about a day later in The New York 
Times.
    And I would like to hear what--leaking is politics in 
Washington. It's the way people expand their turf and make 
their moves, and so a tolerance for it has developed that I 
think, frankly, needs to be adjusted. And I would like to hear 
both of you put yourselves on record on the subject of leaks, 
how seriously you will take their investigations, whether you 
will engage in them yourselves and how you consider that 
problem. Again, Ms. Wagner, if you could go first.
    Ms. Wagner. Well, Senator, I share your concern about leaks 
and also your perspective on why they happen. I do take them 
seriously. If I am confirmed and I have reason to believe that 
anyone in my organization is leaking, I will deal with that as 
a matter of management accountability. If it rises to a level 
that it requires that a crimes report be submitted, I would 
certainly support doing that.
    So I share your concern, and I'll take every action that I 
can to ensure that the leaks do not come from I&A if I'm 
confirmed.
    Senator Whitehouse. Thank you. Ambassador.
    Ambassador Goldberg. I share Ms. Wagner's statement. I 
would add that the personnel at INR are not involved in 
politics, and they shouldn't be involved in politics. They have 
no business being involved in politics, and if a leak were to 
be seen to be coming even from our general direction, it's 
something I would take very seriously.
    Senator Whitehouse. And each of you may very well be called 
upon to be witnesses or to make your staff available as 
witnesses in investigations of leaks that may take place higher 
up, but the trail is back through information developed by your 
organization. I assume I can hear you say that you will provide 
your full cooperation unstintingly to such investigations?
    Ambassador Goldberg. Yes.
    Senator Whitehouse. Thank you.
    Chairman Feinstein. Thank you very much.
    Before recognizing Senator Wyden, I'd like to point out 
that I have appointed a task force on cyber, which is a very 
serious concern to this committee. Senator Whitehouse heads 
that task force. Senator Mikulski and Senator Snowe are 
members, and they will be probably talking with you in a more 
serious nature at a later time. But it is of major importance 
to this committee, and I just wanted to have the opportunity to 
say that.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair, and welcome to both 
nominees.
    Ms. Wagner, it seems to me there are some very serious 
problems that are now facing the Department of Homeland 
Security's intelligence unit and I want to ask you specifically 
about your response to several of those. And let me start by 
reading you a brief excerpt from a report that the committee 
approved unanimously earlier this year.
    And I quote here: ``The committee has raised a number of 
concerns with reports issued by the Department of Homeland 
Security Office of Intelligence and Analysis that 
inappropriately analyzed the legitimate activities of U.S. 
persons. These reports raised fundamental questions about the 
mission of the Office of Intelligence and Analysis, and often 
used certain questionable open source information as a basis of 
their conclusions.''
    Now the committee is not talking here about one instance. 
They are talking about a pattern, and this report was approved 
unanimously by the entire committee. So my first question is, 
if you're approved, what specific steps would you take to make 
sure that the office stops this inappropriate analysis of the 
legitimate activities of law-abiding Americans?
    Ms. Wagner. Well, Senator Wyden, I am aware of some of the 
troubling products that have been released from I&A in the 
past. And, if I'm confirmed, I intend to attack that several 
different ways. There are a couple of issues that are reflected 
in this product. One is basically poor tradecraft, lack of 
analytical rigor.
    The other is the problem with the failure to take into 
proper account privacy, civil rights, civil liberties and First 
Amendment-protected speech. And the problem with the 
definitions in one particular product was it did not draw a 
sufficient distinction between beliefs and actions. So I would 
put in place a very strict tradecraft training program, to 
include mentoring for the analysts.
    I would also ensure that there is training for everyone on 
the guidelines that we are to follow that flow from E.O. 12333 
and have been coordinated with the Justice Department to make 
sure that all of those concerns vis-a-vis privacy, civil rights 
and civil liberties are built into the products early on. And, 
finally, as a sort of insurance measure, I will make sure that 
there is in place a very thorough vetting process for review 
before those products are actually released.
    Senator Wyden. Do you believe that it is ever appropriate 
for your office to analyze the legitimate activities of law-
abiding Americans?
    Ms. Wagner. No, Senator, I do not.
    Senator Wyden. Okay. Now, the Homeland Security Institute--
and they're federally funded as a research center--conducted an 
independent evaluation of the office. The evaluation gave the 
office an overall ranking of 1.5 out of five with regard--I 
gather it's called ``general functionality.'' In particular it 
noted: ``Back office processes are ill-defined, inconsistent 
and ad hoc.'' And they stated, ``Planning, programming and 
budget processes are ill-defined and lack division manager 
involvement.'' Now you are a former chief financial officer for 
the agency, the budget director for the House Intelligence 
Committee. I assume you're up on these general issues.
    Do you agree with the independent evaluation?
    Ms. Wagner. Senator Wyden, I haven't had an opportunity to 
be briefed on all these processes in detail, but as far as I 
know, the evaluation is accurate, and I expect to make 
addressing those management issues and processes one of my top 
priorities if I'm confirmed.
    Senator Wyden. Since I'm running out of time, based on what 
you know now, what specific steps would you take to address 
these concerns from the independent analysis?
    Ms. Wagner. It seems to me that the primary problem is a 
lack of repeatable and transparent processes that give people 
trust in the organization and their leadership. And I think I 
would take steps to put those processes in place. I have done 
that before as the director for analysis and production at DIA 
leading a large analytic organization, and I think that I have 
the ability to address some of those issues. It will take a 
little bit of time, but I am going to make it a priority.
    Senator Wyden. Thank you, Madam Chair.
    Chairman Feinstein. Thank you, Senator. Senator Feingold.
    Senator Feingold. I thank the Chair and I want to thank the 
nominees for your willingness to serve in these positions. Last 
month, I had the pleasure of chairing a nomination hearing for 
Ambassador Goldberg at the Senate Foreign Relations Committee, 
so I'm going to address my questions to Ms. Wagner today.
    As Under Secretary for Intelligence and Analysis, you'll 
have responsibility for setting policies related to the 
collection, analysis, mining, dissemination and retention of 
open-source information, including on Americans. And, as I know 
you're aware, this is an important Homeland Security 
responsibility, but it's also fraught with privacy and civil 
liberties implications. For example, DHS sent open-source 
information to the Maryland state police about the First 
Amendment-protected protest activities of local anti-war 
groups, something that Senators Mikulski and Cardin and I 
expressed concerns about earlier this year.
    Ms. Wagner, what in your mind constitutes open-source 
information on Americans? And what is I&A's role in setting 
policies for how that information can be used?
    Ms. Wagner. Senator Feingold, I believe there are well-
established guidelines and processes already in place that just 
need to be followed, and the analysts need to be rigorously 
trained. The language in E.O. 12333 that protects U.S. persons' 
data hasn't changed since 1981. There are guidelines that I&A 
is using, should be using, that flow from that, and that, 
again, have been coordinated with the Department of Justice.
    I believe that training, oversight and review-and-release 
mechanisms are critical to ensure that we are only using data 
that it is appropriate and lawful for us to use in accordance 
with all applicable laws and regulations.
    Senator Feingold. Well, Director Blair has said it is one 
thing for a private company to have detailed private 
information. It is another for the U.S. government, with all 
its power and authority, to have the same information. So when 
is it appropriate for the government to purchase from private 
companies data on Americans not suspected of any wrongdoing? 
And should that information be considered open source?
    Ms. Wagner. I don't believe so, Senator. I think that for 
us to have information, it needs to be tied to a legitimate 
intelligence requirement that we can defend. It needs to be 
consistent with our legal authorities and it needs to be 
handled consistent with the privacy guidelines that are laid 
out in the documents that I mentioned earlier.
    Senator Feingold. Okay. Then would it be fair to say--
because a lot of Americans voluntarily put a lot of information 
on the Internet to be read by everyone, including government 
officials, would it be fair to say that there are limits to how 
much of that information can be retained and when it can be 
subjected to data mining?
    Ms. Wagner. Yes, I think there are limits, and, again, I 
think there are some very crucial legal tests that need to be 
met in dealing with that information.
    Senator Feingold. The FBI's authority to collect, retain, 
and use information on Americans are subject to statute and the 
Attorney General's guidelines and oversight. This and other 
committees periodically debate whether those authorities are 
too broad or not broad enough and whether the checks and 
balances are adequate, but members of Congress generally know 
where to look to understand the legal framework for what the 
FBI does. I&A, on the other hand, is a new institution. It has 
operated with little specific legal guidance governing 
intelligence activities that have a potential impact on 
Americans.
    Ms. Wagner, as I&A policies continue to take shape, where 
should this guidance come from? Is there a role for the 
Department of Justice and have you identified unresolved 
constitutional or statutory questions or other gaps in the 
legal guidance currently available to I&A? And if you 
identified those gaps, how would you go about resolving them?
    Ms. Wagner. I have not yet identified any gaps, but if I'm 
confirmed and I do, I think I intend to rely heavily on the 
department's Office of Civil Rights and Civil Liberties and the 
Privacy Office. I&A is in the process of hiring its own 
dedicated privacy officer.
    I would first look in-house for guidance on how to deal 
with appropriate information or programs, and then I would 
expect that we would deal with the Department of Justice if it 
required any changes to the guidelines that we currently 
operate under, which we did negotiate and consult with them on.
    Senator Feingold. Okay.
    I've long been concerned about the lack of a meaningful 
standard governing the seizure of travelers' laptop computers 
by the Department of Homeland Security. Can you tell me what 
I&A's policy is for obtaining, retaining, analyzing, and 
disseminating the contents of seized laptops?
    Ms. Wagner. Senator, as you know, I&A doesn't actually 
seize the laptops, but under certain circumstances if data that 
was in the laptops was provided to I&A, we'll treat it in 
accordance with all of the applicable laws and regulations on 
analyzing and storing that data.
    Senator Feingold. Would you commit to considering a policy 
whereby DHS must seek to obtain a warrant before it can hold 
the contents of a seized laptop for more than 24 hours?
    Ms. Wagner. Senator Feingold, I really don't feel I'm in a 
position to answer that question right now. I just don't know 
enough to answer it, but I'd be happy to come back and discuss 
that with you further if I am confirmed.
    Senator Feingold. Could you get back to me as soon as you 
can with your response on that?
    Ms. Wagner. Yes, I can.
    Senator Feingold. Thank you.
    I thank the Chair.
    Senator Wyden [presiding]. I thank my colleague.
    Senator Risch, welcome.
    No questions?
    Senator Risch. Pass.
    Senator Wyden. Senator Whitehouse, additional questions?
    Senator Whitehouse. I'm good.
    Senator Wyden. Ambassador Goldberg, one question for you. 
What role, in your view, Ambassador, do you believe the 
Assistant Secretary should play in ensuring that intelligence-
sharing relationships support broader diplomatic relationships 
and, obviously, vice versa?
    Ambassador Goldberg. Senator, I think intelligence 
relationships, among others that take place with foreign 
governments, are very important and very strong contributors to 
our national security. They have to be done, obviously, with 
great care. Our particular interest in INR is that the chief of 
mission and his or her authorities as delegated by the 
President and the authorities conferred by the President be 
respected as the oversight for the executive branch at the 
embassy. That is the particular State Department interest.
    Senator Wyden. I thank you for that.
    My colleagues, still no questions?
    [No response.]
    Senator Wyden. We don't have anything further. Either of 
you, is there anything else the two of you would like to add?
    [No response.]
    Senator Wyden. The committee is going to have additional 
questions for the record. So it's clear to all Senators and 
staff, we ask that Members submit questions by 2:00 on Friday 
so it will be possible to send them to the nominees. It's the 
committee's intent to review your responses, and it will be our 
desire to vote this month.
    So, with that, the committee is adjourned.
    [Whereupon, at 3:26 p.m., the Committee adjourned.]
                         Supplemental Material
[GRAPHIC] [TIFF OMITTED] 56433.001

[GRAPHIC] [TIFF OMITTED] 56433.002

[GRAPHIC] [TIFF OMITTED] 56433.003

[GRAPHIC] [TIFF OMITTED] 56433.004

[GRAPHIC] [TIFF OMITTED] 56433.005

[GRAPHIC] [TIFF OMITTED] 56433.006

[GRAPHIC] [TIFF OMITTED] 56433.007

[GRAPHIC] [TIFF OMITTED] 56433.008

[GRAPHIC] [TIFF OMITTED] 56433.009

[GRAPHIC] [TIFF OMITTED] 56433.010

[GRAPHIC] [TIFF OMITTED] 56433.011

[GRAPHIC] [TIFF OMITTED] 56433.012

[GRAPHIC] [TIFF OMITTED] 56433.013

[GRAPHIC] [TIFF OMITTED] 56433.014

[GRAPHIC] [TIFF OMITTED] 56433.015

[GRAPHIC] [TIFF OMITTED] 56433.016

[GRAPHIC] [TIFF OMITTED] 56433.017

[GRAPHIC] [TIFF OMITTED] 56433.018

[GRAPHIC] [TIFF OMITTED] 56433.019

[GRAPHIC] [TIFF OMITTED] 56433.020

[GRAPHIC] [TIFF OMITTED] 56433.021

[GRAPHIC] [TIFF OMITTED] 56433.022

[GRAPHIC] [TIFF OMITTED] 56433.023

[GRAPHIC] [TIFF OMITTED] 56433.024

[GRAPHIC] [TIFF OMITTED] 56433.025

[GRAPHIC] [TIFF OMITTED] 56433.026

[GRAPHIC] [TIFF OMITTED] 56433.027

[GRAPHIC] [TIFF OMITTED] 56433.028

[GRAPHIC] [TIFF OMITTED] 56433.029

[GRAPHIC] [TIFF OMITTED] 56433.030

[GRAPHIC] [TIFF OMITTED] 56433.031

[GRAPHIC] [TIFF OMITTED] 56433.032

[GRAPHIC] [TIFF OMITTED] 56433.033

[GRAPHIC] [TIFF OMITTED] 56433.034

[GRAPHIC] [TIFF OMITTED] 56433.035

[GRAPHIC] [TIFF OMITTED] 56433.036

[GRAPHIC] [TIFF OMITTED] 56433.037

[GRAPHIC] [TIFF OMITTED] 56433.038

[GRAPHIC] [TIFF OMITTED] 56433.039

[GRAPHIC] [TIFF OMITTED] 56433.040

[GRAPHIC] [TIFF OMITTED] 56433.041

[GRAPHIC] [TIFF OMITTED] 56433.042

[GRAPHIC] [TIFF OMITTED] 56433.043

[GRAPHIC] [TIFF OMITTED] 56433.044

[GRAPHIC] [TIFF OMITTED] 56433.045

[GRAPHIC] [TIFF OMITTED] 56433.046

[GRAPHIC] [TIFF OMITTED] 56433.096

[GRAPHIC] [TIFF OMITTED] 56433.097

[GRAPHIC] [TIFF OMITTED] 56433.047

[GRAPHIC] [TIFF OMITTED] 56433.048

[GRAPHIC] [TIFF OMITTED] 56433.049

[GRAPHIC] [TIFF OMITTED] 56433.050

[GRAPHIC] [TIFF OMITTED] 56433.051

[GRAPHIC] [TIFF OMITTED] 56433.052

[GRAPHIC] [TIFF OMITTED] 56433.053

[GRAPHIC] [TIFF OMITTED] 56433.054

[GRAPHIC] [TIFF OMITTED] 56433.055

[GRAPHIC] [TIFF OMITTED] 56433.056

[GRAPHIC] [TIFF OMITTED] 56433.057

[GRAPHIC] [TIFF OMITTED] 56433.058

[GRAPHIC] [TIFF OMITTED] 56433.059

[GRAPHIC] [TIFF OMITTED] 56433.060

[GRAPHIC] [TIFF OMITTED] 56433.061

[GRAPHIC] [TIFF OMITTED] 56433.062

[GRAPHIC] [TIFF OMITTED] 56433.063

[GRAPHIC] [TIFF OMITTED] 56433.064

[GRAPHIC] [TIFF OMITTED] 56433.065

[GRAPHIC] [TIFF OMITTED] 56433.066

[GRAPHIC] [TIFF OMITTED] 56433.067

[GRAPHIC] [TIFF OMITTED] 56433.068

[GRAPHIC] [TIFF OMITTED] 56433.069

[GRAPHIC] [TIFF OMITTED] 56433.070

[GRAPHIC] [TIFF OMITTED] 56433.071

[GRAPHIC] [TIFF OMITTED] 56433.072

[GRAPHIC] [TIFF OMITTED] 56433.073

[GRAPHIC] [TIFF OMITTED] 56433.074

[GRAPHIC] [TIFF OMITTED] 56433.075

[GRAPHIC] [TIFF OMITTED] 56433.076

[GRAPHIC] [TIFF OMITTED] 56433.077

[GRAPHIC] [TIFF OMITTED] 56433.078

[GRAPHIC] [TIFF OMITTED] 56433.079

[GRAPHIC] [TIFF OMITTED] 56433.080

[GRAPHIC] [TIFF OMITTED] 56433.081

[GRAPHIC] [TIFF OMITTED] 56433.082

[GRAPHIC] [TIFF OMITTED] 56433.083

[GRAPHIC] [TIFF OMITTED] 56433.084

[GRAPHIC] [TIFF OMITTED] 56433.085

[GRAPHIC] [TIFF OMITTED] 56433.086

[GRAPHIC] [TIFF OMITTED] 56433.087

[GRAPHIC] [TIFF OMITTED] 56433.088

[GRAPHIC] [TIFF OMITTED] 56433.089

[GRAPHIC] [TIFF OMITTED] 56433.090

[GRAPHIC] [TIFF OMITTED] 56433.091

[GRAPHIC] [TIFF OMITTED] 56433.092

[GRAPHIC] [TIFF OMITTED] 56433.093

[GRAPHIC] [TIFF OMITTED] 56433.094

[GRAPHIC] [TIFF OMITTED] 56433.095

  

                                  <all>

</pre></body></html>
